 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




Cost Containment of Medicaid HIV/AIDS
          Drug Expenditures




                         JULY 2001
                       OEI-05-99-00611
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended by Public Law 100-504, is to protect the integrity of the Department of Health
and Human Services programs as well as the health and welfare of beneficiaries served by
them. This statutory mission is carried out through a nationwide program of audits,
investigations, inspections, sanctions, and fraud alerts. The Inspector General informs the
Secretary of program and management problems and recommends legislative, regulatory,
and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the
public. The inspection reports provide findings and recommendations on the efficiency,
vulnerability, and effectiveness of departmental programs.

OEI's Chicago regional office prepared this report under the direction of William Moran,
Regional Inspector General and Natalie Coen, Deputy Inspector General. Principal OEI
staff included:

REGION                                                HEADQUARTERS

Ann Maxwell, Project Leader
                          Elise Stein, Director, Public Health and
Madeline Carpinelli, Analyst
                                                        Human
Services

Erin Bliss, Intern
                                   Stuart Wright, Director, Medicare and
                                                                           Medicaid




     To obtain copies of this report, please call the Chicago Regional Office at (312) 353-4124.
      Reports are also available on the World Wide Web at our home page address:

                                   http://www.hhs.gov/oig/oei
                        EXECUTIVE                     SUMMARY

PURPOSE

         To compare the amount that Medicaid reimburses for HIV/AIDS drugs to the prices paid
         by other government purchasers.

BACKGROUND

         Title XIX of the Social Security Act established Medicaid as a jointly-funded,
         Federal-State health insurance program to provide medical services to low-income
         persons. It is estimated that Medicaid’s net spending on prescription drugs, the most
         frequently used benefit in the Medicaid program, totaled $16.4 billion in fiscal year (FY)
         2000. The Centers for Medicare and Medicaid Services (CMS), formerly known as the
         Health Care Financing Administration, spent $617 million on antiretrovirals in FY 1999.
         Medicaid provides prescription drug benefits for 42 to 46 percent of the 335,000 persons
         living with HIV/AIDS who receive regular care.

         As the largest source of public coverage for prescription drugs, Medicaid strives to be a
         prudent purchaser of pharmaceuticals. It does this by limiting drug reimbursement to
         pharmacies and by receiving quarterly rebates from drug manufacturers.

         Other Federal programs also seek to limit pharmaceutical costs. To assess how Medicaid
         is functioning as a Federal purchaser of HIV/AIDS drugs, we compared Medicaid’s net
         unit costs (reimbursement price minus rebates) for antiretrovirals in FY 2000 to other
         Federal purchasers. In particular, we compare Medicaid’s net prices to: 1) Federal
         ceiling prices, 2) Federal supply schedule prices, 3) 340B Drug Pricing Program ceiling
         prices, and 4) the net costs paid under the 340B Drug Pricing Program rebate option
         available to AIDS Drug Assistance Programs.

FINDINGS

Medicaid pays up to 33 percent more than other Federal Government drug
discount programs for HIV/AIDS drugs

         Comparing the prices paid for antiretrovirals, we found that the 10 Medicaid agencies in
         our sample pay 33 percent more than the Federal ceiling price, 10 percent more than the
         Federal supply schedule and 15 percent more than the 340B Drug Discount Program
         ceiling prices. Medicaid’s net costs also averaged 5 percent more than AIDS Drug
         Assistance Programs participating in the rebate option for most antiretrovirals.



Medicaid HIV/AIDS Drug Cost Containment           i                                  OEI-05-99-00611
Differences in Federal drug pricing formulas are partially responsible for cost
discrepancies

         The difference in HIV/AIDS antiretroviral drug costs across Federal programs is partially
         explained by the fact that each of the Federal purchasers we reviewed adheres to a
         different federally mandated formula. The intention of each of these approaches is to
         place limits on the prices of drugs procured by Federal purchasers. Yet, the outcomes of
         the various approaches differ and result in consistently higher antiretroviral drug prices
         for the Medicaid program.

State reimbursement formulas affect the magnitude of the gap between Medicaid
and other government drug purchasers

         State Medicaid agencies’ flexibility in setting reimbursement rates has resulted in
         different prices for the same antiretroviral drugs among State Medicaid agencies.
         Massachusetts reports the lowest unit expenditures on pharmacy acquisition costs. If the
         other nine States in our sample utilized Massachusetts’ formula, they could have saved an
         annualized $24.5 million dollars. Georgia reports the highest unit expenditures on
         pharmacy acquisition costs.

Medicaid could have saved $102 million if the 10 States surveyed purchased the
16 antiretrovirals at Federal ceiling prices

         Comparing the actual per drug expenditures of Medicaid to what they would have paid if
         they had access to Federal ceiling prices results in a joint Federal/State savings of $102
         million in FY 2000 ($54 million Federal share) for the 10 States in our review. This
         represents 25 percent of the total spent on antiretrovirals in these States. If all Medicaid
         programs were able to obtain Federal ceiling prices, we estimate the program could have
         saved $140 million ($73 million Federal share).

RECOMMENDATIONS

         The rules guiding Medicaid reimbursement and rebates are intended to allow the program
         to participate in the pharmaceutical market as prudent buyers. Our findings demonstrate
         that Medicaid is paying more for antiretroviral drugs than other Federal purchasers. We
         offer several options regarding Medicaid drug reimbursement and rebates as potential
         means to lower Medicaid expenditures on antiretroviral drugs.

For the 16 HIV/AIDS drugs examined, Centers for Medicare and Medicaid Services
should review the current reimbursement methodology and work with States to
find a method that more accurately estimates pharmacy acquisition cost

         In order to maximize scarce Federal and State dollars, it is essential to improve the
         accuracy of States’ estimated pharmacy acquisition cost. We offer the following three
         suggestions for improving reimbursement methodology:


Medicaid HIV/AIDS Drug Cost Containment           ii                                   OEI-05-99-00611
         <         Option 1:          Develop safeguards to protect Medicaid from average wholesale
                                      price (AWP) manipulations, or
         <         Option 2:          Create national estimated acquisition cost for the States based
                                      upon the average manufacturers price, or
         <         Option 3:          Share average manufacturer price data with States so that they can
                                      accurately set Medicaid reimbursement amounts.

         Whichever method CMS adopts to improve estimated acquisition cost, a re-examination
         of the dispensing fee should also be conducted to ensure that pharmacists can cover their
         costs.

The Centers for Medicare and Medicaid Services should initiate a review of
Medicaid rebates for the 16 HIV/AIDS drugs examined

         Though an improved reimbursement methodology would generate program savings, it
         would not completely close the gap between Medicaid and other government drug
         purchasers. This would require a more substantial rebate from drug manufacturers. We
         offer the following two suggestions to CMS for further research:

         <         Option 1:          Increase the rebate percentage of average manufacturer price, or
         <         Option 2:          Base the rebates on average wholesale price rather than average
                                      manufacturer price.

         While our findings and recommendations pertain only to antiretroviral drugs, numerous
         other Inspector General reports have concluded that Medicaid pays more than other
         Federal and private purchasers for a wide variety of drugs. As part of a larger effort to
         examine the problems plaguing Medicaid drug reimbursement and rebate policies, our
         recommendations build off the recommendations made in those previous reports. Future
         work in this area may, in turn, find that the recommendations presented in this report for
         antiretroviral drugs may have broader applicability.

AGENCY COMMENTS

         The CMS provided comments on the draft report in which they agreed with the overall
         intent of our recommendations, but expressed reservations with many of the specific
         suggestions we offered for achieving them. Primarily, CMS felt that they did not have
         the statutory authority to make the suggested changes. Since reducing Medicaid prices
         for HIV/AIDS medications is so crucial to ensuring access to these drugs, we encourage
         CMS to seek any legislation necessary to accomplish the task. However, we continue to
         believe that most of the options delineated in the report can be undertaken without
         amending current law. The complete text of CMS’s comments can be found in Appendix
         E. Additional discussion can be found on page 26.




Medicaid HIV/AIDS Drug Cost Containment                iii                                OEI-05-99-00611
                             TABLE OF CONTENTS

                                                                                                                                    PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS


Medicaid Pays 33 Percent More than other Federal Programs for HIV/AIDS Medications . . 11


Differences in Drug Pricing Formulas Partially Responsible for Cost Discrepancies                                             . . . . . . . 12


Reimbursement Formulas Affect Magnitude of the Gap . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


Medicaid Could Have Saved $102 Million . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16



RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


APPENDICES


A: Glossary of Terms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29


B: List of Antiretroviral Drugs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30


C: Sampled States’ Formula for Estimating Acquisition Cost . . . . . . . . . . . . . . . . . . . . . . . . . . 31


D: Sampled States’ Dispensing Fees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32


E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33


F: Related Office of Inspector General Report Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37


G: Related Office of Inspector General Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40


H: End Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41





Medicaid HIV/AIDS Drug Cost Containment                               iv                                                  OEI-05-99-00611
                                   INTRODUCTION

PURPOSE

        To compare the amount that Medicaid reimburses for HIV/AIDS drugs to the prices paid
        by other government purchasers.


BACKGROUND

Medicaid

        Medicaid is the largest program providing medical services to America’s poorest people
        and represents our nation’s primary health care safety net for low-income women,
        children and disabled persons. Title XIX of the Social Security Act established Medicaid
        as a jointly-funded, Federal-State health insurance program. The Federal Government
        contributes a matching percentage of State Medicaid outlays, ranging from 50 percent to
        83 percent of health care costs, depending on the State’s relative per capita income.

        The Centers for Medicare and Medicaid Services (CMS), formerly known as the Health
        Care Financing Administration (HCFA), administers Medicaid at the Federal level. The
        CMS estimates expenditures for the program totaled $201 billion in fiscal year (FY)
        2000, $114 billion in Federal and $87 billion in State funds. This funding covered
        approximately 41 million individuals.

Medicaid and HIV

        Of the total $201 billion Medicaid spent in FY 2000, $4.1 billion went for HIV/AIDS
        care.1 The States’ portion of expenditures for Medicaid HIV/AIDS patients was $1.9
        billion. Federal Medicaid HIV/AIDS spending was $2.2 billion.

        There are an estimated 800,000 to 900,000 Americans living with HIV/AIDS, 300,000 of
        whom are estimated to be living with AIDS. Fifty-five percent of all adults and 90
        percent of children with AIDS are enrolled in Medicaid.

        Most persons with HIV/AIDS who qualify for Medicaid coverage do so by meeting one
        of two eligibility requirements. First, many individuals with HIV/AIDS become disabled
        as a result of their illness. This disability, combined with limited income, makes them
        eligible for Social Security Income, and consequently, eligible for Medicaid. Second,
        people with HIV may meet categorical and financial tests unrelated to their disease.
        Despite Medicaid’s critical role in providing care for both HIV and AIDS patients,
        eligibility for the largest population of HIV infected persons, childless adults that have
        not yet been disabled by AIDS, is limited.


 Medicaid HIV/AIDS Drug Cost Containment        1                                     OEI-05-99-00611
        Medicaid eligibility may be broadening for persons infected with HIV. Since 1997, CMS
        has granted States the ability to submit a 1115 waiver proposal to test Medicaid
        eligibility expansion. In February 2000, Maine received approval to extend Medicaid
        benefits to non-disabled persons living with HIV. In January 2001, Massachusetts also
        received waiver approval to enable people with HIV to qualify for comprehensive health
        coverage under Medicaid. In 1999, Section 204 of the Ticket to Work and Work
        Incentives Improvement Act established the Demonstration to Maintain Independence
        and Employment grant program. This program authorizes States to provide Medicaid
        benefits and services to workers who have physical or mental impairments that, without
        medical assistance, will result in disability. Thus far, Mississippi has been granted $27.5
        million to provide Medicaid coverage to 500 persons living with HIV/AIDS. Finally,
        Congress is considering national legislation to provide States with an option to extend
        Medicaid coverage to low-income non-disabled individuals with HIV/AIDS without the
        need to apply for an 1115 waiver.

Medicaid and Prescription Drug Coverage

        Medicaid is the largest source of public coverage for prescription drugs. It is estimated

        that Medicaid’s net spending on prescription drugs, the most frequently used benefit in

        the Medicaid program, totaled $16.4 billion in FY 2000. Medicaid provides prescription

        drug benefits for 42 to 46 percent of the 335,000 persons living with HIV/AIDS who

        receive regular care. In FY 1999, Medicaid spent $617 million for antiretrovirals.


        Medicaid’s prescription drug program faces increasing demand and rising pharmaceutical

        costs. The rate of HIV infection is accelerating among low-income persons, especially

        women. In the last decade the proportion of AIDS cases reported among women has

        tripled.2 Demand for services has also increased due to Medicaid eligibility expansion. 

        Further, pharmaceutical costs have been increasing approximately 16 to 21 percent

        annually compared to the 4 to 7 percent annual increases in overall Medicaid spending. 3

        As a result of increasing demand and increasing costs, containment of prescription drug

        expenditures has become an important issue at both the State and Federal level.


        Currently, Medicaid seeks to control pharmaceutical expenses in several ways. One way

        is to limit drug coverage through such measures as prescriptions limits and restrictions on

        specific drugs based upon drug formularies.4 However, Medicaid’s ability to use

        formularies is limited. In particular, CMS issued a letter in June 1996 to State Medicaid

        directors requiring States to cover all Food and Drug Administration approved protease

        inhibitors, a prominent drug class used in the treatment of HIV/AIDS. States can also

        institute beneficiary co-payments, but these cannot exceed the maximum of $3. 

        Medicaid also strives to limit the cost of drugs. Toward this end, State agencies limit the

        amount they reimburse pharmacies for prescription drugs. They also receives rebates

        from manufacturers for dispensed drugs.





 Medicaid HIV/AIDS Drug Cost Containment         2                                     OEI-05-99-00611
Medicaid Drug Reimbursement to Pharmacies

        Under Section 1902(a)(30)(A) of the Social Security Act, CMS has the authority to set
        upper payment limits for services available under the Medicaid program. On July 31,
        1987, CMS published the final rule (52 FR 28648) that limits Medicaid drug
        reimbursements to pharmacies. The guidelines for payment were issued to ensure that
        the Federal Government act as a prudent buyer of drugs.

        The reimbursement methods set forth differ for generic and brand name drugs. All of the
        drugs in our study are brand name because there are no generic antiretrovirals available at
        this time. For brand name drugs, Medicaid reimbursement is the lower of either the
        pharmacist’s usual and customary charge to the general public or the estimated
        acquisition cost (EAC) plus a reasonable dispensing fee.

Estimated Acquisition Cost

        The estimated acquisition cost is the State agency’s best estimate of the price generally
        paid by pharmacies for a drug.5 The CMS’s final rule does not specify any particular
        method for calculating EAC. As a result, States have developed their own methods for
        estimating acquisition cost. States typically use one of two methods. The “cost plus”
        method calculates the provider’s cost based upon the wholesaler acquisition cost (WAC)
        plus a markup percent. The WAC is the list price established by manufactures for sales
        to wholesalers. The “list less” method relies upon the average wholesale price (AWP)
        less a discount percentage. The AWP is the manufacturer’s suggested list price for a
        wholesaler to charge a pharmacy for a drug. Both the AWP and WAC are listed and
        updated by First Databank, a national drug pricing compendium, in the national drug
        product and pricing information publication the Blue Book.

        The majority of State Medicaid agencies use the list less method. However, various
        investigations into AWP demonstrated that AWP was overstated by as much as 10 to 20
        percent. In response, CMS clarified that the State determination of estimated acquisition
        cost using AWP must include a significant discount to be considered an acceptable
        estimate. In 1997, the Office of Inspector General (OIG) report, “Medicaid Pharmacy -
        Actual Acquisition Costs of Prescription Drug Products for Brand Name Drugs” (A-06-
        96-00030) found that the actual acquisition costs for brand name drugs were still on
        average 18 percent lower than AWP. The average State discount in 1999 was 10.4
        percent off of AWP.6

        Recent investigations conducted by the Department of Justice, the Office of Inspector
        General and Medicaid Fraud Control Units are further calling into question AWP’s
        validity. They have found that even with the “significant discount” off of average
        wholesale price, prices paid by Medicaid are still inflated. As a result, efforts are being
        made to ensure accurate drug pricing data are used in setting Medicaid reimbursement
        rates. First Databank has agreed to change the way it reports prices for 48
        pharmaceuticals based on figures that fraud investigators have determined to be closer to


 Medicaid HIV/AIDS Drug Cost Containment         3                                     OEI-05-99-00611
        what medical providers actually pay. None of the 48 pharmaceuticals with revised prices
        are antiretrovirals used for treating HIV/AIDS.

Dispensing Fees

        State agencies are required to determine reasonable dispensing fees, or, if dispensing fees
        are not paid separately, to impute an amount equivalent to a reasonable dispensing fee.
        This fee represents the charge for the professional services provided by a pharmacist
        when dispensing a prescription. Prior to 1987, States were required to survey dispensing
        fee costs and update those fees in a periodic manner. The requirement was eliminated
        with the expectation that States would continue to work to establish a reasonable
        dispensing fee level and document these in their State plan.

Manufacturer Rebates: The Medicaid Drug Rebate Program

        In addition to limiting reimbursement, the Medicaid program controls costs by obtaining
        rebates from drug manufacturers. The Omnibus Budget Reconciliation Act of 1990
        created the Medicaid Drug Rebate Program. This Federal statute mandates that drug
        manufacturers provide rebates to State Medicaid agencies. For their drugs to be eligible
        for Medicaid reimbursement, manufacturers must enter into rebate agreements with the
        Secretary of the Department of Health and Human Services and pay quarterly rebates to
        the State Medicaid agencies.

        Rebates are calculated separately for generic drugs and brand name drugs. The rebate for
        brand name drugs is the greater of 15.1 percent of the average manufacturer price (AMP)
        per unit or the difference between the AMP and the manufacturer’s “Best Price.” The
        average manufacturer price is the average unit price paid to the manufacturer for the drug
        by wholesalers. The Best Price is defined as the lowest price available from the
        manufacturer to any wholesaler, retailer, provider, health maintenance organization,
        nonprofit entity, or government entity, excluding any prices charged to certain
        government agencies and the Federal Supply Schedule, State pharmaceutical assistance
        programs, and any single award contract prices.7 In an effort to restrain drug price
        inflation, the rebate calculation includes an additional rebate on any drug whose price
        increases at a rate faster than the Consumer Price Index-Urban.

Other Federal Drug Purchasing Systems

Department of Veterans Affairs

        The Veterans Health Care Act (VHCA) of 1992, Section 603, states that prices to the
        Department of Veterans Affairs (VA), Department of Defense, the Coast Guard and the
        Public Health Service, known as the Big 4, may not exceed 76 percent of the non-Federal
        average manufacturer price (non-FAMP). The non-FAMP is the manufacturers weighted
        average of commercial, non-Federal sales per unit. These statutorily discounted prices




 Medicaid HIV/AIDS Drug Cost Containment         4                                    OEI-05-99-00611
        are typically referred to as the Federal ceiling prices. The law additionally requires that
        the Big 4 access these Federal ceiling prices through the Federal supply schedule (FSS).

        In addition to calculating the Federal ceiling price, the VA manages several Federal
        supply schedules dealing with health care commodities for the entire Federal
        Government, including Schedule 65 I B for pharmaceuticals. The FSS provides a
        schedule of contracts and prices for a broad range of drugs that allow agencies to
        purchase various quantities of pharmaceuticals while still obtaining the discount
        associated with bulk purchasing. Using competitive procedures, contracts are awarded to
        companies to provide drugs at “the most favored customer price.”

340B Covered Entities

        Section 602 of VHCA enacted Section 340B of the Public Health Services Act. This sets
        statutory ceiling prices for pharmaceuticals purchased by certain covered entities. The
        entities eligible for 340B Drug Discount Program direct purchase option purchase drugs
        directly from the manufacturers through a centralized mechanism. The ceiling price
        formula is roughly the average manufacturer’s price decreased by the Medicaid unit
        rebate amount (URA).

        Among those eligible for the 340B Drug Discount Program are the AIDS Drug
        Assistance Programs (ADAP), established by the Ryan White Comprehensive AIDS
        Resource Emergency Act of 1990. The ADAPs provide medications to low-income
        individuals living with HIV/AIDS who have limited or no coverage from private
        insurance or Medicaid.

        The 340B ceiling price is available to 23 State ADAPs who acquire pharmaceuticals
        through a centralized purchaser. Another 24 State ADAPs take advantage of a rebate
        option that allows them to access Medicaid unit rebates on a quarterly basis. Like
        Medicaid, these ADAPs do not purchase their own drugs but rather reimburse retail
        pharmacies for prescriptions filled.

Pharmaceutical Industry Overview

        The pharmaceutical industry is extremely complex, including a myriad of arrangements
        that differ by drug, company and purchaser. Chart 1 provides an extremely basic view of
        these interactions. It is only meant to explicate the fundamental dynamics among the
        various entities involved in Medicaid drug purchasing and distribution. It does not, by
        any means, capture the full complexity of the system. The following paragraphs explain
        the chart from top to bottom.

        Manufacturers typically do not distribute their products, but rather rely on wholesalers to
        warehouse and distribute their drugs. For brand name drugs, manufacturers set the
        wholesale acquisition price as a list price for wholesalers to purchase drugs from
        manufacturers. Manufacturers also set the average wholesale price as a suggested list



 Medicaid HIV/AIDS Drug Cost Containment         5                                      OEI-05-99-00611
       price for wholesalers to charge drug suppliers. Both the WAC and the AWP operate as
       suggested list prices and are typically not what is paid. Buyers negotiate lower prices
       through the inclusion of discounts, rebates or free goods.

       Wholesalers purchase large quantities of drugs from manufacturers and distribute them to
       drug suppliers, including retail pharmacies, pharmacy benefit managers, hospitals and
       physicians. Almost 80 percent of all prescription drugs are purchased through
       wholesalers. The interaction between these components and the Medicaid program has
       been diagramed in Chart 1 below. We have also included a glossary of terms in
       Appendix A.




Medicaid HIV/AIDS Drug Cost Containment        6                                    OEI-05-99-00611
                                      Chart 1: Pharmaceutical Industry


                                              Manufacturers
     Manufacturers distribute their products primarily through drug wholesalers but also sell
     directly to pharmacies, hospitals and other bulk purchasers.

     Manufacturers establish wholesale acquisition cost and average wholesale price.



                                                     List Price: Wholesale Acquisition Cost (WAC)

                                                      Actual Selling Price: Average Manufacturers
                                                                      Price (AMP)

                                               Wholesalers
                       Wholesalers act as the middlemen that distribute
                       pharmaceuticals from manufacturers to pharmacies.



                                                         List Price: Average Wholesale Price (AWP)

                                                         Actual Selling Price: Actual Acquisition Cost
                                                                             (AAC)


                                             Retail Pharmacies
                      Pharmacies dispense prescriptions to consumers and provide
                      professional pharmacist services.



                                                         Reimbursement: Estimated Acquisition Cost
                                                         (EAC) - (WAC plus a percentage or AWP
                                                         minus a percentage) - plus dispensing fee


Manufacturer Rebates:
15.1% of AMP or AMP-Best Price


                                             Medicaid Agencies
       Cover the pharmaceutical costs for eligible low-income women, children and disabled.




 Medicaid HIV/AIDS Drug Cost Containment             7                                      OEI-05-99-00611
Related Work by the Office of Inspector General

        The Office of Inspector General has issued a significant body of work related to all
        aspects of Medicaid drug pricing including reimbursement, rebates and the accuracy of
        AWP. In 1997, the OIG released a series of reports specific to 10 States estimating the
        difference between AWP and the prices at which pharmacies purchase brand name and
        generic drugs. The results from the 10 States are summarized in two reports: “Medicaid
        Pharmacy: Actual Acquisition Cost of Generic Prescription Drug Products” (A-06-97-
        00011) and “Medicaid Pharmacy: Actual Acquisition Cost of Prescription Drug Products
        for Brand Name Drugs” (A-06-97-00030). These reports found that pharmacies pay an
        average of 42.5 percent less than AWP for generic drugs and 18.3 percent less for brand
        name drugs. The OIG recommended that CMS work to ensure that the States reimburse
        the ingredient portion of Medicaid in a manner more consistent with the findings of the
        report. It was also recommended that CMS study any of the other factors, such as
        dispensing fees, which they believe could significantly impact pharmacy reimbursement.

        Other related reports include “Need to Establish Connection Between the Calculation of
        Medicaid Drug Rebates and Reimbursement for Medicaid Drugs” (A-06-97-00052).
        This report examines the disparity inherent in the fact that Medicaid drug rebates are
        calculated using the AMP while the Medicaid program reimburses pharmacies based on
        AWP. The Inspector General recommended a legislative change to base rebates on the
        AWP. In “Medicaid Drug Rebates: The Health Care Financing Administration1 Needs to
        Provide Additional Guidance to Drug Manufacturers to Better Implement the Program”
        (A-06-91-00092), the OIG found manufacturers’ calculations of AMP to be inconsistent.
        The OIG recommended that CMS should survey manufacturers to identify the various
        calculation methods used to determine AMP and develop a more specific policy for
        manufacturers.

        Another related OIG report looks at the prices paid for 10 antiretrovirals by the AIDS
        Drug Assistance Program (ADAP). This report, “AIDS Drug Assistance Program Cost
        Containment Strategies” (OEI-05-99-00610), found that ADAP ceiling prices are, on
        average, 16 percent higher than the Federal ceiling prices and that ADAPs could have
        saved $58 million in 1999 if they were able to access the Federal ceiling prices.

SCOPE AND METHODOLOGY

        This inspection compares the net prices (reimbursement price minus rebates) that 10
        State Medicaid agencies paid for all 16 HIV/AIDS antiretroviral drugs to the prices paid
        by other government purchasers. Specifically, the prices paid by the State Medicaid
        agencies were compared to the Federal ceiling prices, the Federal supply schedule
        contract prices, and the prices available to 340B eligible entities.



        1
               In June 2001, the Health Care Financing Administration (HCFA) was renamed the Centers for
Medicare and Medicaid Services (CMS).
 Medicaid HIV/AIDS Drug Cost Containment             8                                        OEI-05-99-00611
       The 10 States selected accounted for 73 percent of Medicaid’s total fee-for-service
       spending on antiretrovirals in FY 1999. They also accounted for nearly 70 percent of all
       AIDS cases in the United States (excluding Puerto Rico). 8 The States are: California,
       Florida, Georgia, Illinois, Maryland, Massachusetts, New Jersey, New York,
       Pennsylvania and Texas.

       We selected the most commonly prescribed package size for each of the 16 Food and
       Drug Administration approved antiretroviral drugs. A list of these selected drugs can be
       found in Appendix B. Antiretrovirals constitute one of the most prescribed and effective
       drug therapies for treating HIV/AIDS and are covered by all Medicaid agencies.

       We focused on the pharmaceutical prices paid by the fee-for-service component of
       Medicaid. We did not consider drug prices negotiated by Medicaid managed care
       organizations. Most States carve out HIV/AIDS prescription drug payments from their
       managed care contracts and pay for these drugs separately under their standard drug
       benefit policy. Furthermore, managed care organizations negotiate their own drug
       discounts with manufacturers and are not covered by Federal laws that seek to contain
       Medicaid drug costs.

       For the purpose of this study, we focused on drug acquisition costs. For Medicaid, we
       defined these as the net costs to Medicaid for antiretroviral drugs. This is calculated by
       subtracting the manufacturer’s rebates paid to Medicaid from the reimbursement rates
       paid by Medicaid to the pharmacies. We selected acquisition cost, choosing to disregard
       administrative overhead, drug distribution and storage expenses, in order to control for
       different administrative and drug distribution systems. Comparisons incorporating this
       data would amount to a comparison of alternate systems and are not the focus of this
       study.

       To conduct our analysis, we gathered information regarding pharmaceutical pricing from
       CMS and the VA. The CMS supplied us with the average manufacturer’s price, the Best
       Price, the Medicaid unit rebate amount, 340B ceiling prices as well as total expenditures
       on antiretrovirals. The VA provided us with data on the Federal ceiling prices and the
       FSS contract prices.

       To gather data on actual State Medicaid agencies’ expenditures, we sent a survey to each
       of the 10 States in our sample in September 2000. The survey requested States to record
       drug reimbursements, rebates and dispensing fees for the first two quarters of Federal FY
       2000. The survey also asked States brief questions concerning the reimbursement
       formula, dispensing fee charges, and any additional rebates. Finally, the States were
       requested to provide the total amount spent on the 16 drugs in FY 1999.

       The surveys were followed up with telephone interviews with each State’s Medicaid
       Director or Pharmacy Division Director. The purpose of the interviews was to gain a
       general understanding of program operations and to explore any efforts surrounding




Medicaid HIV/AIDS Drug Cost Containment         9                                    OEI-05-99-00611
       HIV/AIDS treatment or drug cost containment strategies. The interviews were conducted
       between September and November of 2000.

       We have taken precaution not to disclose any proprietary drug prices. Towards this end,
       most estimates are averages and all estimates have been rounded. All savings estimates
       based on this information have been annualized. We conducted our review in accordance
       with the Quality Standards for Inspections issued by the President’s Council on Integrity
       and Efficiency.




Medicaid HIV/AIDS Drug Cost Containment       10                                    OEI-05-99-00611
                                          FINDINGS

Medicaid pays up to 33 percent more than other Federal
Government drug discount programs for HIV/AIDS drugs
       Comparing the prices for antiretrovirals, we found that the Medicaid agencies we

       sampled pay up to 33 percent more than other Federal Government programs that

       purchase antiretrovirals. On average, Medicaid pays:


       <         33 percent more than the Federal ceiling price,9

       <         10 percent more than the Federal supply schedule contract prices, and,

       <         15 percent more than the 340B Drug Discount Program ceiling prices.


       On average, Medicaid will pay 61 cents more per pill than the Big 4 agencies covered by

       the Federal ceiling prices. This difference ranges from 7 cents more per pill for

       Rescriptor and $1.10 more per pill for D4T. For D4T, this difference translates into $66

       more per prescription.


       While Medicaid’s average net price is higher than the Federal Supply Schedule average

       price when all 16 drugs are considered, for 7 drugs, Medicaid pays less than the FSS

       price. Medicaid averages 11 cents less per pill for theses 7 drugs. However, where

       Medicaid is paying more than the FSS, they are averaging 50 cents more per pill. For

       example, Medicaid pays 46 percent more for D4T than agencies accessing the FSS and

       44 percent more for Videx.


       These comparisons indicate that the Medicaid program is not as successful as other

       Federal purchasers in securing low-cost pharmaceuticals for its recipients. One possible

       explanation for the discrepancy is the fact that the various programs purchase their drugs

       at different points in the economic chain of pharmaceutical manufacturers, wholesalers

       and pharmacies. The VA, on behalf of the Big 4 and the rest of the agencies accessing

       the FSS, as well as the 340B Drug Discount Program (direct purchase option) purchase

       directly from manufacturers or wholesalers. The Medicaid program does not purchase

       drugs directly. Rather, participating pharmacies bill Medicaid an allowed amount for

       filled prescriptions. 


       Given that Medicaid’s price purchases the additional services of a pharmacist, it is not

       surprising that Medicaid’s reimbursement rate is higher than other program’s purchase

       prices. The National Association of Chain Drug Stores found that in 1999, 22 percent of

       the cost of a prescription went to the pharmacy and another 2.3 percent went to the

       wholesaler. However, the prices used in the above comparisons were not Medicaid’s 

       reimbursement prices, but rather its net prices. Medicaid’s net price is their

       reimbursement price minus manufacturer rebates. The rebates are intended to give




Medicaid HIV/AIDS Drug Cost Containment          11                                    OEI-05-99-00611
        Medicaid the benefit of price discounts offered by the manufacturers to their largest
        customers. Even calculating in these rebates, Medicaid is paying the highest prices for
        antiretrovirals of any Federal purchaser.

Medicaid pays 5 percent more for antiretrovirals than AIDS Drug Assistance
Programs with identical drug distribution structure

        While the above comparisons may only approximately gauge Medicaid’s drug
        purchasing performance due to differences among the programs, one would expect
        Medicaid to pay the same amount for the same drugs when compared to a government
        program of similar structure. In order to assess this, we compared the prices Medicaid
        pays for antiretrovirals to those paid by AIDS Drug Assistance Programs utilizing the
        rebate option of the 340B Drug Discount Program.

        The Medicaid program and the rebate ADAPs share identical drug purchasing and
        distribution structures. Like Medicaid, rebate ADAPs reimburse pharmacies for the
        purchase and distribution of drugs. Like Medicaid, rebate ADAPs receive the Medicaid
        unit rebate from manufacturers on a quarterly basis. Despite their identical structures,
        Medicaid paid, on average, 5 percent more than the drug assistance programs for 10
        antiretrovirals in 1999. Medicaid reimburses 6 percent more for Combivir, Videx and
        Retrovir. Since both programs receive the same statutorily defined rebates, the
        discrepancy indicates that Medicaid’s reimbursement rate for the sampled States is higher
        than the average reimbursement rate for the rebate ADAPs.

Differences in Federal drug pricing formulas are partially
responsible for cost discrepancies
        Each Federal drug purchaser adheres to a different federally mandated formula to contain
        drug costs. The Big 4 and the 340B programs, because they have the ability to purchase
        directly from a manufacturer or wholesaler, are able to realize their savings up-front
        through federally defined ceiling prices. Medicaid, on the other hand, attempts to contain
        costs by recouping rebates from manufacturers after paying discounted retail prices for
        pharmaceuticals. The intent of each approach is to place limits on the prices of drugs
        procured by Federal purchasers. Yet the outcomes of the various approaches differ and
        result in consistently higher prices for the Medicaid program. Table A outlines the
        formulas governing drug prices for the Federal programs of interest.




 Medicaid HIV/AIDS Drug Cost Containment        12                                   OEI-05-99-00611
                                Table A. Federal Drug Discount Formulas

                                                                               Statutory Authority
            Drug Purchasing Program          Drug Purchasing Formula10


                                          Reimbursement         Cost
                                              Base           Containment
                                                              Measure

                                                                            Omnibus Budget
         Medicaid                           Wholesaler      15.1% of        Reconciliation Act 1990
                                             prices         Manufacturer
                                                            prices

                                                                            Veterans Health Care Act
         Federal Ceiling Price             Manufacturer     24% of          of 1992 (Section 603)
                                             prices         Manufacturer
                                                            prices

                                                            annual          Federal Property and
         Federal Supply Schedule           ‘most favored    negotiations    Administrative Services
                                          customer price’   with            Act of 1949
                                                            manufacturers

         340B Drug Discount Program        Manufacturer                     Veterans Health Care Act
               (direct purchase)             prices         15.1% of        of 1992 (Section 602)
                                                            Manufacturer
                                                            prices

         340B Drug Discount Program         Wholesaler
                (rebate option)              prices         15.1% of              63 CFR 35239
                                                            Manufacturer
                                                            prices


       As shown in Table A, there are several considerations when comparing Federal drug
       pricing formulas. One is the price estimate used as the base reimbursement amount, a
       second involves the calculation of those base estimates, and a third is the level of the
       mandated discounts.

       Medicaid and rebate ADAPs reimburse based on a wholesale list price. This is a
       recommended list price for the sale of drugs from wholesalers to retailers. On the other
       hand, the Federal ceiling price and the 340B ceiling price are sales calculated using
       manufacturer prices. As a result, Medicaid is at a disadvantage because its
       reimbursement formula is based on the wholesale list price, which is always higher than
       the manufacturer sales price. It is higher since it represents a price farther down the
       chain of buyers and sellers. It is also higher because wholesale list price is only a list
       price that is almost always higher than the actual purchase price, whereas manufacturer
       sales prices are based on actual transaction prices.




Medicaid HIV/AIDS Drug Cost Containment             13                                      OEI-05-99-00611
       Second, even when measures for the various programs are based on manufacturers’
       prices, there are different interpretations of what that base includes. The VA bases its
       reimbursement and cost containment on the non-federal average manufacturer price (non-
       FAMP). Non-FAMP is the average price of a drug that is paid by wholesalers in the
       United States to the manufacturer, except for any prices paid by the Federal
       Government.11 The CMS bases cost containment on average manufacturer price, which
       is the average price paid to the manufacturer for the drug by wholesalers for drugs
       distributed to the retail pharmacy class of trade.12 Although conceptually similar, these
       definitions are not identical, and CMS and the VA may calculate them slightly
       differently. Both AMP and non-FAMP specifically exclude sales to federal purchasers,
       but how they may vary is unclear. Furthermore, the VA updates their non-FAMP
       calculation annually whereas CMS updates the AMP calculation quarterly.

       Third, the level of discounting in the programs’ cost containment measure also differs.
       Medicaid and rebate ADAPs receive the Medicaid unit rebate amount from
       manufacturers. This is roughly 15.1 percent of AMP. They receive these rebates
       quarterly only after reimbursing retail pharmacies at prices based on average wholesale
       price. The 340B Drug Discount Program also uses the Medicaid unit rebate amount to
       discount the cost of drugs, but there is a key difference between program formulas. The
       340B direct purchase program subtracts the unit rebate amount (URA) from the drug
       price prior to the drug purchase. The Federal ceiling price provides an even steeper
       discount by subtracting 24 percent off of manufacturer prices rather than the 15.1 percent
       represented by the Medicaid unit rebate amount. Thus, Medicaid faces disadvantages in
       both paying a higher reimbursement base and receiving a lower cost containment
       discount when compared to Federal ceiling prices.

State reimbursement formulas affect the magnitude of the
gap between Medicaid and other government drug
purchasers
       State Medicaid agencies have flexibility in setting their reimbursement rates. This has
       resulted in different prices for the same drugs among State Medicaid agencies.
       Massachusetts’ net unit prices are 24 percent higher than the Federal ceiling prices for
       these 16 drugs. Maryland’s approach yields net prices that are 33 percent higher than the
       Federal ceiling price. Georgia bears the highest net costs, which are 55 percent higher
       than the Federal ceiling price. Given the fact that Medicaid manufacturer rebates are
       nationally set by CMS, the only explanation for the difference among States is their
       reimbursement methodology.

       As previously stated, Medicaid reimbursement of pharmacies includes two components,
       the estimated acquisition cost and the dispensing fee. The State Medicaid Manual
       defines estimated acquisition cost as “the agency’s best estimate of the price generally
       and currently paid by providers.”13 Currently, CMS grants States maximum flexibility in
       determining estimated acquisition cost. Seven of the 10 States calculate this estimate

Medicaid HIV/AIDS Drug Cost Containment        14                                    OEI-05-99-00611
       based solely upon average wholesale price. Two States consider both average wholesale
       price and wholesaler acquisition cost and reimburse at the lower calculation. One State
       bases calculations solely upon WAC. Appendix C contains a list of the States’
       reimbursement formulas.

Massachusetts reports the lowest unit pharmacy acquisition costs

       The other nine States reimburse pharmacies at an average unit price that is 2 to 16
       percent higher than Massachusetts’ cost for these 16 drugs. If the other nine States in our
       sample utilized Massachusetts’ formula, they could have saved an annualized $24.5
       million. Of this total, over $12.7 million represent the Federal share of program savings.
       These savings would narrow the disparity between State Medicaid net costs and Federal
       ceiling prices by 24 percent. The gap would close even further for the Federal supply
       schedule (58 percent) and 340B covered entities (44 percent).

       Massachusetts is the only State in our sample that consistently calculates pharmacy
       reimbursement based upon wholesaler acquisition cost. The WAC represents the price at
       which wholesalers purchase the drug from the manufacturer. Massachusetts reimburses
       at WAC plus 10 percent. The other six States (not in our sample) that use WAC for
       constructing pharmacy costs also average a 10 percent mark-up.

Georgia reports the highest unit pharmacy acquisition costs

       Georgia reimburses pharmacies at an average unit price that is 9 to 16 percent higher than
       the reimbursement of the other nine States. If Georgia utilized a reimbursement
       calculation equal to the average calculation of the other nine States, it could have saved
       over $1.5 million in annual net costs. This represents a savings of 10 percent of
       Georgia’s total net costs, of which the Federal Government pays a 60 percent share.

       Georgia reports using AWP minus 10 percent as its formula and obtaining its pricing
       information from First Databank. Four other States in our sample also report the
       consistent use of the AWP minus 10 percent formula and the receipt of data from First
       Databank. The average drug cost for Georgia is over 9 percent higher than these other
       four States.

Eight of ten States pay modest dispensing fees

       While the estimated acquisition cost calculation is intended to reimburse the pharmacies’
       costs to purchase the drug, the dispensing fee is meant to compensate pharmacies for the
       costs of dispensing the drug.

       Most States pay pharmacists a flat dispensing fee for brand name drugs. These flat fees
       range from $3.0014 to $4.23. The average flat dispensing fee is $3.89. Some States
       employ a “tiered” dispensing fee that varies across drugs. For two of these tiered-fee



Medicaid HIV/AIDS Drug Cost Containment        15                                    OEI-05-99-00611
       States, the maximum dispensing fees average $4.35. See Appendix D for a list of
       dispensing fees by State.

       Illinois and Texas are the only States in our sample with significantly higher dispensing
       fees. Illinois pays a fee equal to 10.4 percent of the drug cost, up to a maximum fee of
       $15.40. For 15 of the antiretrovirals, the calculated fee reached the Illinois cap, and the
       average fee for all 16 drugs was $15.10. The Texas fee system pays $5.27 plus 2 percent
       of the drug cost. This calculation produced an average fee of $10.85 for Texas for the 16
       drugs in our study.

Medicaid could have saved $102 million if the 10 States
surveyed purchased 16 antiretroviral drugs at Federal ceiling
prices
       The 10 States we reviewed would have saved a total of $51 million or 25 percent15 of
       their net cost for the first two quarters of FY 2000 if their drug prices equaled the Federal
       ceiling prices. This amounts to program savings of $102 million annually. The Federal
       share of this savings is approximately $54 million annually.

       While this savings estimate is limited to only 10 of the 52 Medicaid programs, the 10
       States are those with the largest percentage of HIV/AIDS cases. These States also
       represent the bulk of Medicaid expenditures on antiretrovirals. We estimate that they
       represent 73 percent of the total Medicaid spent in FY 1999 for the 16 antiretrovirals. If
       we assume this same percentage for FY 2000, we can estimate that if all Medicaid
       programs’ net prices were equal to the Federal ceiling prices, the program could have
       saved $140.5 million, saving the Federal Government $73.8 million.

       The States that would save the most if Medicaid net costs were equivalent to other
       Federal drug prices are New York, Florida and California. This is due to the extremely
       large volume of drugs they purchase. These three States purchased 73 percent of all of
       the units purchased by our sample States. The States that would maximize per unit
       savings are Georgia, Texas and Illinois. On average, Georgia could save over a dollar
       per pill if their net prices were equal to the Federal ceiling prices. They could save 75
       cents per pill if their net prices were equal to those listed on the Federal supply schedule.

       Medicaid could have saved over $55 million, representing over half of the total savings
       estimate, if their net prices for just 3 of the 16 drugs were equal to the Federal ceiling
       prices. If the net price of Combivir was equivalent to the Federal ceiling prices, the
       program would have saved $26 million. Medicaid could have saved another $18 million
       if D4T net prices were equivalent to the Federal ceiling prices and almost $12 million on
       Epivir. The median savings for all 16 drugs is $4 million.




Medicaid HIV/AIDS Drug Cost Containment         16                                      OEI-05-99-00611
These savings could be applied to the expanding need for antiretroviral therapy

        All States have opted to include prescription drug benefits in their programs, so Medicaid
        covers antiretroviral therapy for all eligible persons with HIV/AIDS. Medicaid faces
        increasing demand for antiretrovirals because the population of Medicaid eligible persons
        with HIV/AIDS is growing. Program savings can be translated into the ability to provide
        life-saving antiretrovirals to additional persons for the same cost. The $102 million
        savings could purchase additional antiretrovirals to meet the impending pharmaceutical
        needs and improve the lives of several thousand more individuals living with HIV/AIDS.
        Using the estimate of $12,000 a year for combination antiretroviral therapy, the savings
        could purchase a complete regimen for over 8,500 HIV-infected persons.

        Focusing solely on the three drugs with the most savings, Epivir, Combivir and D4T, also
        results in a substantial increase in purchasing power for these life-saving therapeutics.
        The $102 million in savings could purchase an additional 728,000 bottles of D4T at
        Federal ceiling prices. This translates into a prescription of a bottle per month for 60,000
        patients. Alternately, the $102 million in savings could purchase 712,000 additional
        bottles of Epivir for 59,000 patients’ annual needs or 315,000 bottles of Combivir for
        26,300 patients.

        This purchasing ability is particularly important for the Medicaid program in light of
        three trends. First, some States are considering extending Medicaid eligibility to low-
        income HIV-positive individuals before they become categorically eligible through
        disability. The CMS has already approved waivers for Maine and Massachusetts to
        conduct such demonstration programs, and other States have pending applications.
        States that apply for such demonstration waivers must prove budget neutrality, and
        decreased drug costs can help the States to extend prescription drug eligibility and still
        meet this requirement.

        Second, the rate of HIV infection is accelerating among low-income persons, especially
        women. In the last decade the proportion of AIDS cases reported among women has
        tripled16. This trend suggests that more HIV-positive persons will become categorically
        eligible for Medicaid. Providing antiretroviral therapy to more persons without
        increasing total expenditures would ease the impending strain on Medicaid budgets.

        Third, some States have already experienced budget strains and shortfalls related to
        Medicaid drug costs, and these pressures can have serious consequences for the provision
        of optional services. For example, the Medicaid Director of Indiana has proposed
        restricting Medicaid drug coverage and eliminating certain other optional services to
        avert budget shortfalls over the next 2 years.17 Cost savings for antiretrovirals represents
        one means to alleviate strained budgets and to preclude the need to restrict coverage of
        these lifesaving drugs.




 Medicaid HIV/AIDS Drug Cost Containment         17                                     OEI-05-99-00611
                          RECOMMENDATIONS

       Maximizing the ability to purchase life-saving antiretroviral drugs may be the only
       fiscally viable solution to meeting the challenges of increasing demand and access.
       Demand for HIV/AIDS pharmaceuticals continues to increase as the standard of care for
       persons living with HIV/AIDS grows increasingly reliant on drug therapy. The National
       Institutes of Health/Public Health Service Guidelines for the Use of Antiretroviral Agents
       in HIV Infected Adults and Adolescents calls for the use of combination therapy
       comprised of at least three drugs. Additionally, the numbers of HIV-infected people are
       climbing among the low-income, traditionally under-served, population. This, in
       combination with the fact that approximately 68 percent of the HIV/AIDS population in
       care has no private health insurance18 will continue to place increasing demands on
       Medicaid to provide more pharmaceuticals. Beyond this increase in demand, State and
       Federal legislatures continue to consider expanding Medicaid coverage to a broader
       range of HIV-infected persons.

       The rules guiding Medicaid reimbursement and rebates are intended to allow the program
       to participate in the pharmaceutical market as prudent buyers. Our findings demonstrate
       that Medicaid is paying more for antiretroviral drugs than other Federal purchasers.
       Because of this discrepancy and the potential program savings, the CMS should revisit
       the rules governing Medicaid reimbursement and rebates for antiretrovirals.

       Unfortunately, the extreme complexity of the pharmaceutical market complicates the
       resolution of these issues. The drug industry is multi-layered, with a variety of
       manufacturing, distribution and retail sales arrangements that not only differ by
       geographic location, but also by product. Thus, it is extremely difficult to determine how
       and to what degree changes will affect market participants. Recognizing the potential for
       unexpected impacts, we offer several options within each recommendation for CMS to
       examine as means to improve reimbursement and rebate methodology for antiretroviral
       drugs. Our recommendations suggest starting points for additional research and
       discussion on how these changes could impact quality and access to care. Such
       comprehensive examinations represent the first step to actuating the long term goals that
       involve regulatory or legislative changes.




Medicaid HIV/AIDS Drug Cost Containment        18                                    OEI-05-99-00611
For the 16 HIV/AIDS drugs examined, Centers for Medicare
and Medicaid Services should review the current
reimbursement methodology and work with States to find a
method that more accurately estimates pharmacy acquisition
cost
        The CMS has the ability to address deficiencies in the Medicaid reimbursement system.
        Under Section 1902(a)(30)(A) of the Social Security Act, CMS has the authority to set
        upper payment limits for services available under the Medicaid program. Regulations
        42 CFR 447.331 through 447.334 limit the aggregate amounts State Medicaid agencies
        may claim for pharmaceuticals. To be granted Federal matching funds to pay for
        pharmaceuticals, State agencies are required to submit claims to CMS for approval. In
        order to maximize scarce State and Federal dollars it is essential that CMS use its
        authority to help improve the accuracy of States' estimated pharmacy acquisition cost.

Options for Improving Estimated Acquisition Cost

        Medicaid’s current reimbursement system predominantly relies upon average wholesale
        price to estimate acquisition cost. The CMS can improve the EAC calculation either by
        making changes to AWP within the existing system or by changing the basis of the
        calculation. If CMS prefers to continue using AWP, then we suggest the following
        improvement option:

        <	        Option 1: Develop safeguards to protect Medicaid from average wholesale
                  price manipulations

                  The CMS has demonstrated an awareness of problems with AWP validity, and we
                  encourage CMS to intensify its efforts to address this issue. In 1997 and 1998,
                  CMS supported legislative proposals that would have required Medicare
                  reimbursement to be based upon actual acquisition cost rather than average
                  wholesale price. Also in 1998, in comments to an OIG report, “Need to Establish
                  Connection Between the Calculation of Medicaid Drug Rebates and
                  Reimbursement for Medicaid Drugs” (A-06-97-00052), CMS indicated that they
                  were planning to examine the calculation of AWP. They stated that this review
                  would include issues such as, “how AWP is defined; how to safeguard against
                  manipulation of AWPs to maximize reimbursement or minimize rebates; how to
                  verify the accuracy of AWPs; the need for an indexing factor; and differences in
                  AWPs for brand name versus generic drugs.”19 The CMS has not yet undertaken
                  this examination, but we suggest that they follow through with their planned
                  study. Such an examination would provide a solid foundation of knowledge for
                  building safeguards to protect Medicaid from AWP manipulations.




 Medicaid HIV/AIDS Drug Cost Containment         19                                   OEI-05-99-00611
                 More recently, CMS has expressed the intent to work with State Medicaid
                 programs to implement a revised AWP methodology that the Department of
                 Justice has established with First Databank regarding a limited set of drugs. One
                 approach to revising the AWP methodology would be for CMS to require EAC
                 calculations using AWP to be based on market surveys in order to qualify for
                 Federal financial participation. Providing clear guidelines for acceptable
                 calculations will assist States in maintaining Medicaid’s responsiveness to the
                 pharmaceutical marketplace.

                 Furthermore, we suggest that CMS reinforce these guidelines by requiring a more
                 frequent reporting of payment assurances by States. To access Federal matching
                 funds, States must make “findings and assurances” that their drug reimbursements
                 have not exceeded the maximum aggregate limits that CMS has established.20
                 Payment assurances for brand name drugs compare the prices paid by State
                 agencies to State calculations of estimated acquisition cost. The CMS set this
                 reporting period for every 3 years to limit the burden on States to make these
                 calculations. At the time of the regulation, however, CMS did not anticipate that
                 States would use the EAC reimbursement method as consistently as they have.
                 Submitting pricing assurances may be less arduous than anticipated because
                 States already make estimated acquisition cost calculations. Increasing the
                 frequency of these reports may increase accountability of State reimbursements
                 without imposing an undue burden.

                 If CMS prefers to create a new basis for estimating acquisition cost, then we
                 suggest that CMS use average manufacturer price for the EAC calculation. The
                 CMS can either set national EAC levels or allow States to set their own levels. If
                 CMS’s main concern is protection of AMP confidentiality, then we recommend
                 Option 2. If CMS is more concerned with State flexibility, then we recommend
                 Option 3.

       Option 2: Create national estimated acquisition costs for States based upon
       average manufacturer price

                 An alternative to creating a market-based average wholesale price may be to
                 discontinue the reliance upon this figure. The use of AWP for estimating
                 acquisition costs emerged as a matter of convenience because AWP data was
                 readily accessible. Initially, it did not seem problematic to rely on manufacturer’s
                 pricing information without audit controls. Because manufacturers do not bill the
                 program for their drugs, there appeared to be little to no incentive to inflate prices.
                 However, over the years the financial link between manufacturers and Medicaid
                 billers has become evident. Manufacturers can inflate AWP and generate
                 financial incentives for providers to favor their products. Now that these issues
                 have been identified, the negative repercussions of relying on AWP outweigh the
                 convenience.


Medicaid HIV/AIDS Drug Cost Containment            20                                      OEI-05-99-00611
                 An alternate reimbursement option involves CMS determining its own estimated
                 acquisition cost for States based upon average manufacturer price. Unlike AWP,
                 which is a suggested list price, AMP is a calculation that reflects actual
                 transactions between drug manufacturers and commercial purchasers.
                 Manufacturers submit AMP information to CMS quarterly, which CMS uses to
                 calculate Medicaid’s unit rebate amounts. The average manufacturer price data is
                 subject to Federal oversight and audits, which ensure its accuracy.

                 A reimbursement formula based on AMP instead of AWP would also serve to
                 connect rebates and reimbursement. Currently, reimbursement is based on AWP
                 and rebates are based on AMP, creating a disconnection between the two
                 calculations. This disconnection has introduced incentives for manufacturers to
                 inflate average wholesale price to generate profit for providers. If both rebates
                 and reimbursement were based on AMP, however, the incentive to inflate
                 reimbursement amounts would be removed as any increase to AMP would also
                 cause an increase in the rebates paid by the manufacturer.

                 The confidentiality of AMP is statutorily protected, so States cannot currently
                 obtain this information and use it to create their own estimated acquisition cost.
                 The CMS, however, could determine its own methodology for estimating
                 acquisition cost based upon AMP plus some mark-up percentage to compensate
                 wholesalers and pharmacies. Under the condition that CMS does not reveal its
                 EAC formula, AMP would remain confidential. The CMS could then report EAC
                 data to States along with the unit rebate information it already reports on a
                 quarterly basis.

                 While this option may limit State flexibility to determine their own payment
                 systems, it would allow the States and the Federal Government to access
                 significant program savings. In order to maintain some level of flexibility, CMS
                 could implement this suggestion using aggregate reimbursement limits for States.
                 This would require that total State spending on drugs did not exceed a maximum
                 set by CMS, without imposing a strict ceiling on each prescription drug price.
                 This approach would afford States and physicians some flexibility on a case by
                 case basis while also providing the Federal Government with the needed
                 oversight and control over expenditures.

       <	        Option 3: Share average manufacturer price data with States so that they
                 can accurately set Medicaid reimbursement rates

                 The rebate program requires drug manufacturers to report average manufacturer
                 price and Best Price data to the Secretary in order to have their drugs reimbursed
                 by Medicaid. Both AMP and Best Price are confidential. The confidentiality
                 provision mandates that AMP and Best Price information provided by the
                 manufacturer “will not be disclosed by the Secretary or State Medicaid agency in


Medicaid HIV/AIDS Drug Cost Containment          21                                    OEI-05-99-00611
                   a form which reveals the Manufacturer, or prices charged by the Manufacturer”
                   except as necessary to carry out the Medicaid rebate program. 21

                  Currently, CMS interprets the confidentiality clause very narrowly. This
                  interpretation prevents CMS from sharing average manufacturer price data with
                  State Medicaid agencies. The CMS reports only the unit rebate amounts to States,
                  from which States cannot deduce AMP because of the complex unit rebate
                  methodology. It would seem plausible, however, to interpret the confidentiality
                  provision more broadly as a safeguard to prevent manufacturers from gaining
                  access to the pricing information of their competitors. The legislation specifically
                  prohibits the State Medicaid agencies from disclosing average manufacturer price
                  and Best Price, which implies a legislative assumption that State Medicaid
                  agencies would have access to that information. In September 1995, CMS
                  addressed this issue in response to comments received on the proposed rule
                  regarding Medicaid payment for outpatient drugs. The CMS asserted that they
                  would not to disclose AMP to the States but maintained that the statute
                  contemplates the disclosure of manufacturer pricing data to the States and that they
                  believed Congress intended that States have access to sufficient pricing
                  information to implement the Medicaid drug rebate program.22

                  Furthermore, the statute also indicates that State Medicaid agencies have a legal
                  obligation to protect manufacturers’ confidentiality interests. The CMS could
                  initiate this reimbursement option by working with the States to devise a means of
                  protecting the confidentiality of average manufacturer price. For example, the
                  State Medicaid agencies could conduct in-house calculations of reimbursement for
                  antiretrovirals using AMP plus a markup percentage that would be kept
                  confidential. Because this methodology would only affect 16 drugs, performing
                  and protecting this calculation should not present a formidable burden. Once CMS
                  and the States have agreed upon protection measures, then CMS could provide
                  AMP data to the States on a quarterly basis.

                  By sharing AMP information with the State Medicaid agencies, CMS could
                  provide States with the means to fulfill the intent of the Medicaid reimbursement
                  to reflect actual acquisition costs. Improving the accuracy of State estimates
                  would also generate program savings. Furthermore, States would maintain
                  flexibility in determining their reimbursement formulas and enjoy more valid
                  information upon which to base those determinations.

Examining the Current Medicaid Dispensing Fees

        Regardless of which option CMS chooses to improve pharmacy reimbursement
        methodology, any change should include a separate consideration of appropriate
        dispensing fees to ensure that pharmacists can cover their professional costs. Otherwise,
        pharmacies may begin to refuse Medicaid patients, limiting access for beneficiaries.


  Medicaid HIV/AIDS Drug Cost Containment          22                                    OEI-05-99-00611
       In the past, CMS has expressed concern about fair pharmacy compensation for serving
       Medicaid clients and has stated that one means to ensure access was to permit pharmacies
       to profit from sales to Medicaid clients. Though the final rule of 1987 deleted a
       procedural requirement for States’ determination of reasonable dispensing fees, CMS
       expressed the expectation that the States would continue their customary activities to
       establish this fee. These activities included: 1) audits and surveys of pharmacy
       operational costs; 2) compilation of data regarding professional salaries and fees; and 3)
       analysis of compiled data regarding pharmacy overhead costs, profits, etc. We
       recommend that CMS consider reinstating the requirement that States determine a
       reasonable dispensing fee using one of the methods described or another appropriate
       method for estimating pharmacy dispensing costs.


The Centers for Medicare and Medicaid Services should
initiate a review of Medicaid rebates for the 16 HIV/AIDS drugs
examined
       Though an improved reimbursement methodology would generate program savings, it
       would not completely close the gap between Medicaid and other government drug
       purchasers. Medicaid reimbursement cannot be lowered so far as to eliminate all
       pharmacy profit without risking pharmacies' willingness to serve this population. This
       access concern limits the extent to which decreased reimbursement can achieve savings.

       However, the Medicaid rebate program could significantly increase the unit rebate amount
       and still allow the manufacturers to profit from participation. Drug manufacturers receive
       approximately 76 percent of the cost of a prescription. After deducting taxes, research,
       marketing and other operational costs from this gross share, manufacturers retain a net
       profit that averages over 18 percent.

       Initiating a review of the rebate formula to address the purchasing disadvantage that
       Medicaid faces in comparison to other Federal purchasers would be consistent with the
       legislative history of the program. The Omnibus Budget Reconciliation Act of 1990
       created the Medicaid drug rebate program and set forth a formula based upon average
       manufacturer price and Best Price. This formula produced an unintended consequence
       that disadvantaged certain Federal drug purchasers, including the VA. The Veterans
       Health Care Act of 1992 amended the rebate program to correct that disadvantage.
       Congress changed the rebate formula to exclude certain government purchasers from the
       Best Price calculation in order to secure better drug prices for those programs. The
       VHCA of 1992 also increased the rebate percentage from 12.5 percent to 15.7 percent off
       of AMP in the last quarter of 1992 and then incrementally lowered it to 15.1 percent.

       We propose that CMS examine how another legislative amendment could ameliorate
       Medicaid’s purchasing disadvantage to generate program savings for the 16 drugs
       examined. We offer two suggestions for further research, which are linked to the


 Medicaid HIV/AIDS Drug Cost Containment       23                                    OEI-05-99-00611
        reimbursement option that CMS pursues. If CMS chooses to base reimbursement
        calculations upon average manufacturer price, as outlined by either Option 2 or Option 3
        of the previous recommendation, then we suggest the following:

        <         Option 1: Increase the rebate percentage of average manufacturer price

                  Ensuring that Medicaid's net costs more closely resemble the costs of other Federal
                  purchasers requires an increase in the Medicaid unit rebate. The current Medicaid
                  rebate is statutorily based upon a 15.1 percent discount off of AMP. 23 One of the
                  reasons that the Federal ceiling price is much lower than the Medicaid net price is
                  because the Federal ceiling price statutorily receives a 24 percent discount off of
                  average manufacturer price. Regardless of improvements to the reimbursement
                  formula, the Medicaid net price would still exceed the Federal ceiling price
                  because the Federal ceiling price receives a greater discount off of average
                  manufacturer price. Increasing the percentage off of AMP used for the rebate
                  calculation would allow Medicaid to access greater program savings.

On the other hand, if CMS continues to base reimbursement on average wholesale price, as
outlined by Option 1 of the reimbursement recommendations, then we suggest the following:

        <	        Option 2: Base rebates on average wholesale price rather than average
                  manufacturer price

                  Another potential means to achieve these savings involves changing the basis of
                  the Medicaid rebate calculation from average manufacturer price (AMP) to
                  average wholesale price (AWP). In May 1998, the OIG issued "Need to Establish
                  Connection between the Calculation of Medicaid Drug Rebates and
                  Reimbursement for Medicaid Drugs" (A-06-97-00052). This report recommended
                  a legislative change requiring that Medicaid rebates be based upon AWP. Despite
                  concurring with the administrative benefits, CMS disagreed that such a proposal
                  was feasible. We suggest that CMS re-evaluate this recommendation to determine
                  whether it would achieve program savings.

                  As discussed, the current disconnection between reimbursement based on AWP
                  and rebates based on AMP creates an incentive for manufacturers to use average
                  wholesale price inflation as a profit-based incentive for providers to choose their
                  drug. Using average wholesale price for rebate calculations would minimize
                  manufacturers' incentives to inflate AWP because their rebate obligations would
                  increase as AWP increased. Furthermore, the rebate program guarantees an
                  additional rebate when drugs prices increase at a faster rate than inflation, as
                  measured by the consumer price index. This mechanism also discourages artificial
                  price inflation. If Medicaid reimbursement methodology continues to use average
                  wholesale price, then this change could both improve the accuracy of
                  reimbursement and increase the unit rebates.


  Medicaid HIV/AIDS Drug Cost Containment         24                                     OEI-05-99-00611
                  One concern, however, that CMS should consider involves this susceptibility of
                  AWP to manipulation. Average wholesale price listings are not currently indexed
                  to actual transactions, so conceivably, manufacturers could artificially lower AWP
                  in the same way that they can artificially inflate it. A lower AWP could reduce
                  Medicaid reimbursement expenditures, but it would also reduce unit rebate
                  amounts. These circumstances complicate the forecasting of net program savings
                  through this option.

Implications for Broader Medicaid Drug Benefit

        While our findings and recommendations pertain only to antiretroviral drugs, numerous
        other Inpector General reports have concluded that Medicaid pays more than other Federal
        and private purchasers for a wide variety of drugs. In 1997, the IG estimated that the
        actual acquisition cost for brand name drugs averaged 18.3 percent below AWP. The
        difference between actual acquisition cost and generic drugs averaged 42.5 percent. For a
        complete list of the findings and recommendations of these reports, please consult
        Appendix F.

        As part of a larger effort to examine the problems plaguing Medicaid drug reimbursement
        and rebate policies, our recommendations build off the recommendations made in
        previous OIG reports. Future work in this area may, in turn, find that the
        recommendations presented in this report for antiretrovirals drugs may have broader
        applicability.




  Medicaid HIV/AIDS Drug Cost Containment         25                                    OEI-05-99-00611
                          AGENCY COMMENTS

      The CMS provided comments on the draft report in which they agreed with the overall
      intent of our recommendations but expressed reservations with many of the specific
      suggestions we offered for achieving them. The complete text of CMS’s comments can be
      found in Appendix E. Primarily, CMS felt that they did not have the statutory authority to
      make the suggested changes. Since reducing prices for HIV/AIDS medications is so
      crucial to ensuring access to these drugs, we encourage CMS to seek any legislation
      necessary to accomplish the task. However, we continue to believe that most of the
      options delineated in the report can be undertaken without amending current law. Below
      we review CMS’s concerns and offer some specific suggestions on how our recommended
      options could be operationalized under current law.

      In response to the first option related to Medicaid reimbursement, CMS stated that there
      are already safeguards in place to protect AWP from price manipulation. The CMS points
      out that the law gives States the authority to establish their own payment methodologies
      for prescription drugs. Consequently, CMS believes that States retain the responsibility
      for implementing any necessary safeguards, with CMS “encourag[ing] states to be
      proactive in monitoring the pharmaceutical marketplace.” Finally, CMS stated that their
      guidance to the States regarding the calculation of estimated acquisition cost was clear and
      that further guidance would constitute Federal price controls.

      While it is true that some safeguards protecting Medicaid from AWP inflation are in
      place, considerable evidence points to the fact that AWP is still very vulnerable to price
      manipulations. Appendix F lists several other OIG reports that, like this report, document
      on-going problems with AWP calculations resulting in higher prices to the Medicaid
      program. Federal and State prosecutors are currently investigating numerous drug
      companies regarding alleged inflation of AWP for Medicaid-covered drugs. In January
      2001, the Bayer Corporation agreed to pay $14 million to settle charges of alleged AWP
      inflation and other alleged wrongdoing. Even CMS has demonstrated an awareness of the
      problems with AWP validity through support of legislative proposals to replace AWP with
      actual acquisition cost and through correspondence with the House Commerce Committee.
      The persistence of these problems indicates that this issue has not yet been sufficiently
      addressed.

      The OIG agrees that CMS should not impose price controls, and our recommendations do
      not suggest price controls. Rather, our options to safeguard AWP suggest that CMS
      provide more specificity in the guidelines that it already imposes. While we agree with
      CMS that States retain responsibility for defining their EAC methodology, CMS also
      retains the responsibility of oversight for that methodology through the State plan
      approval process. The CMS has demonstrated the authority to provide boundaries of
      acceptability of EAC calculations. In the State Medicaid Manual, CMS already requires
      that States must include a “significant discount” off of AWP in order for a State’s

Medicaid HIV/AIDS Drug Cost Containment       26                                     OEI-05-99-00611
      reimbursement methodology to be accepted. Given the preponderance of evidence that
      demonstrates AWP still overstates prices, we believe that CMS should further clarify the
      requirements of an acceptable use of AWP by specifying that the AWP should be derived
      in a way that reflects actual market transactions.

      The CMS disagreed with our second option related to Medicaid reimbursement, to create a
      national EAC for the States based on the AMP, and our third option, to share AMP data
      with States to set Medicaid reimbursement rates. In both cases, they cited the statutorily
      protected confidentiality of AMP. The CMS did agree to examine the current dispensing
      fee as part of their state plan amendment review process and will do so whenever a State
      proposes a fee change.

      We continue to believe that the creation of a national estimated acquisition cost based on
      AMP is workable on a drug-by-drug basis without disclosing AMP information. This
      recommendation applies to only 16 very specific drugs, namely, antiretrovirals to treat
      HIV/AIDS. We believe that the CMS could develop an estimated acquisition cost for the
      States for these 16 drugs based upon AMP plus a markup percentage. The CMS could
      share the calculated EAC for these 16 drugs without revealing the formula from which the
      EAC was derived much the way they currently share unit rebate amounts with States
      without revealing AMP.

      Our interpretation of the confidentiality provision for AMP leads us to believe that CMS
      could legally share AMP with the State Medicaid programs. The confidentiality provision
      mandates that AMP information provided by the manufacturer “will not be disclosed by
      the Secretary or State Medicaid agency in a form which reveals the Manufacturer or prices
      charged by the Manufacturer.”24 The specific inclusion of the State Medicaid agencies in
      that mandate implies a legislative assumption that those agencies would have access to
      AMP information. In September 1995, CMS addressed this issue and expressed an
      interpretation of this provision more similar to our own. In the Federal Register (60 FR
      48442), CMS stated that although they would not disclose AMP to the States at that time,
      they maintained that the statute contemplates the disclosure of this manufacturer pricing
      data to the States.25

      Our second recommendation called for CMS to initiate a review of Medicaid rebates for
      the 16 HIV/AIDS drugs examined in this study. The CMS agreed with the first option of
      increasing the rebate percentage of AMP and plans to include this recommendation when
      they consider legislative changes for the Medicaid program.

      The CMS disagreed with our second option, basing the rebates on AWP rather than AMP,
      citing comments to an OIG report from 1998, “Need to Establish Connection Between the
      Calculation of Medicaid Drug Rebates and Reimbursement for Medicaid Drugs”
      (A-06-97-00052). In these comments, CMS stated that a legislative change was not
      feasible at the time the report was issued and expressed concern with AWP validity. We
      share this concern, and our recommendation advised CMS to consider the susceptibility of
      AWP to manipulation if they chose this option.

Medicaid HIV/AIDS Drug Cost Containment       27                                    OEI-05-99-00611
      In the 1998 CMS comments, CMS stated that they were planning to examine the
      calculation of AWP, including issues such as, “how AWP is defined; how to safeguard
      against manipulation of AWPs to maximize reimbursement or minimize rebates; how to
      verify the accuracy of AWPs; the need for an indexing factor; and differences in AWPs
      for brand name versus generic drugs.”26 We support such an examination. We agree that
      these issues warrant CMS’s attention, and these concerns strengthen our belief that the
      CMS should provide greater guidance to the States regarding acceptable use of AWP.

      We hope that this additional discussion of our recommendations is helpful to CMS. We
      encourage them to reconsider the feasibility of each option to accomplish the ultimate goal
      of assuring that Medicaid pays reasonable prices for the 16 antiretroviral drugs we
      reviewed. Reducing prices for these life-saving antiretrovirals is an essential step in
      helping the Medicaid program meet the demands of expanded eligibility for people living
      with HIV.




Medicaid HIV/AIDS Drug Cost Containment       28                                    OEI-05-99-00611
                                                                                              APPENDIX A


                                            Glossary of Terms


Estimated Acquisition Cost (EAC) — State Medicaid agency’s best estimate of the price
generally and currently paid by pharmacies for a drug.2 This figure is meant to represent
pharmacies’ actual acquisition cost (AAC).

Average Wholesale Price (AWP) — The published manufacturer’s suggested list price for a
wholesaler to charge a pharmacy for a drug.3

Wholesale Acquisition Cost (WAC) — the price paid by the wholesaler for drugs purchased
from the manufacturer. Publicly listed WAC amounts may not reflect all available discounts. 4

Actual Acquisition Cost (AAC) — The net cost at which the pharmacy acquires a drug. 5

Average Manufacturer Price (AMP) — The average price paid by wholesalers to the
manufacturer for drugs distributed to the retail pharmacy class of trade. 6

Best Price (BP) — The lowest price available for a drug from the manufacturer to any purchaser
with the exception of Federal agencies and State pharmaceutical assistance programs. 7




         2
             State Medicaid Manual, Part 6, Section 6305.1

         3
             Prescription Drug Trends -- A Chartbook. The Henry J. Kaiser Family Foundation, July 2000.
         4
             Ibid.
         5
             Ibid.

         6
             42 USC Sec. 1396r-8(k)(1)

         7
             42 USC Sec. 1396r-8(c)(1)(C)
  Medicaid HIV/AIDS Drug Cost Containment                29                                        OEI-05-99-00611
                                                                                          APPENDIX B


                       List of Antiretroviral Pharmaceuticals


                                                               Activity
      Pharmaceutical                       Manufacturer
                                                                Class
                                                                            Chemical / Mechanistic Class

Crixivan (Indinavir)                  Merck                   Antiviral   Protease Inhibitor

Invirase (Saquinavir)                 Hoffmann-La Roche       Antiviral   Protease Inhibitor

                                                                          Non-Nucleoside
Sustiva (Efavirenz)                   DuPont                  Antiviral
                                                                          Reverse Transcriptase Inhibitor

Norvir (Ritonavir)                    Abbott Laboratories     Antiviral   Protease Inhibitor

                                      Agouron
Viracept (Nelfinavir)                 Pharmaceuticals
                                                              Antiviral   Protease Inhibitor

Retrovir (AZT)                                                            Nucleoside
                                      Glaxo Wellcome          Antiviral
(Zidovudine)                                                              Reverse Transcriptase Inhibitor

                                                                          Nucleoside
Epivir (3TC)                          Glaxo Wellcome          Antiviral
                                                                          Reverse Transcriptase Inhibitor

                                                                          Nucleoside
Videx (ddl)                           Bristol Myers-Squibb    Antiviral
                                                                          Reverse Transcriptase Inhibitor

                                                                          Nucleoside
D4T (Zerit)                           Bristol Myers-Squibb    Antiviral
                                                                          Reverse Transcriptase Inhibitor

                                                                          Nucleoside
Combivir (AZT/3TC)                    Glaxo Wellcome          Antiviral
                                                                          Reverse Transcriptase Inhibitor

Fortovase (Saquinavir)                Hoffmann-La Roche       Antiviral   Protease Inhibitor

Hivid                                                                     Nucleoside
                                      Hoffmann-La Roche       Antiviral
(Zalcitabine, ddC)                                                        Reverse Transcriptase Inhibitor

                                      Boehringer Ingelheim                Non-Nucleoside
Viramune (Nevirapine)                 Pharmaceuticals, Inc/
                                                              Antiviral
                                                                          Reverse Transcriptase Inhibitor
                                                                          Non-Nucleoside
Rescriptor (Delavirdine)              Pharmacia & Upjohn      Antiviral
                                                                          Reverse Transcriptase Inhibitor

Ziagen (abacavir)                                                         Nucleoside
                                      Glaxo Wellcome          Antiviral
                                                                          Reverse Transcriptase Inhibitor

Agenerase (amprenavir)                Glaxo Wellcome          Antiviral   Protease Inhibitor




 Medicaid HIV/AIDS Drug Cost Containment                30                                      OEI-05-99-00611
                                                                                                APPENDIX C


Sampled States’ Formulas for Estimating Acquisition Cost





                     State                  EAC Calculation
                     California             AWP - 5% or Direct Price8
                     Florida                AWP - 13.25%
                     Georgia                AWP - 10%
                     Illinois               AWP - 10%
                     Maryland               lower of: AWP-10%, WAC+10%,
                                            Direct+10%9
                     Massachusetts          WAC + 10%
                     New Jersey             AWP - 10%
                     New York                AWP - 10%
                     Pennsylvania           AWP - 10%
                     Texas                  lower of : AWP - 15.5% or WAC +
                                            12%




       8	
                 California has negotiated agreements with certain drug manufacturers to purchase drugs directly
                 from the manufacturer. These agreements cover four of the drugs in our study, namely, Crixivan,
                 Norvir, D4T and Rescriptor. Including these discounts, California Medicaid administrators
                 estimate their average reimbursement formula is AWP- 12 percent.
       9
                 Direct Price is the price at which the manufacturer sells directly to the pharmacy.
Medicaid HIV/AIDS Drug Cost Containment                 31                                             OEI-05-99-00611
                                                                                                 APPENDIX D



                          Sampled States’ Dispensing Fees





                      State                 Dispensing Fee to Pharmacies
                      California            $3.80
                      Florida               $4.23
                      Georgia               $4.33-$4.63
                      Illinois              10.4% of drug cost up to $15.40
                                            maximum10
                      Maryland              $4.21
                      Massachusetts         $2.50 + $0.50 beneficiary co-pay
                      New Jersey            $3.73-$4.07
                      New York              $3.50
                      Pennsylvania          $4.00
                      Texas                 $5.27 + 2% of drug cost




       10	
                 For prescriptions that cost less than $37.50, Illinois pays a flat fee of $3.45. All of the drugs in
                 our study cost more than $37.50 per prescription.
Medicaid HIV/AIDS Drug Cost Containment                  32                                              OEI-05-99-00611
                                                             APPENDIX E


                                          Agency Comments





Medicaid HIV/AIDS Drug Cost Containment          33              OEI-05-99-00611
Medicaid HIV/AIDS Drug Cost Containment   34   OEI-05-99-00611
Medicaid HIV/AIDS Drug Cost Containment   35   OEI-05-99-00611
Medicaid HIV/AIDS Drug Cost Containment   36   OEI-05-99-00611
                                                                                             APPENDIX F



     Related Office of Inspector General Report Summaries


Need to Establish Connection Between the Calculation of Medicaid Drug Rebates and
Reimbursement for Medicaid Drugs (A-06-97-00052)
Findings                                                 Recommendations
Manufacturers use inconsistent methods to calculate      Submit a legislative proposal requiring rebates to be
AMP. Using AWP in place of AMP could have                based upon AWP.
resulted in 1.15 billion more in drug rebates for 100
brand name drugs in each CY of 1994 through 1996.

There is no direct financial connection between the      Establish safeguards to ensure that manufacturers do
calculation of drug rebates and reimbursements to        not raise AWP if a proposal is enacted.
pharmacies

Requiring drug manufacturers to pay rebates based on     Study other viable alternatives to the current program
AWP would reduce the administrative burden at            of using AMP to calculate the Medicaid rebates such
HCFA and manufacturers.                                  as the establishment of a flat percentage of
                                                         manufacturers gross sales.



Medicaid Pharmacy: Actual Acquisition Cost of Generic Prescription Drug Products
(A-06-97-00011)
Findings                                                 Recommendations
Pharmacies pay an average of 42.5 percent less than      HCFA11 should work to ensure that States reimburse
AWP for generic drugs sold to Medicaid beneficiaries.    the ingredient portion of Medicaid drugs in a manner
                                                         more consistent with the findings of this report

If reimbursement had been based on the estimates of      HCFA should study any of the other factors, such as
this report, Medicaid could have saved $145.5 million    dispensing fees, which they believe could significantly
for CY 1994 and 1995 for 200 drugs.                      impact pharmacy reimbursement.




        11
          HCFA is the acronym for the Health Care Financing Administration. In June 2001, the Health Care
Financing Administration was renamed the Centers for Medicare and Medicaid Services (CMS).
 Medicaid HIV/AIDS Drug Cost Containment                37                                          OEI-05-99-00611
Medicaid Pharmacy: Actual Acquisition Cost of Prescription Drug Products for Brand
Name Drugs (A-06-97-00030)
Findings                                                  Recommendations
The actual acquisition cost for brand name drugs is       HCFA should work to ensure that States reimburse the
estimated to be a national average of 18.3 percent        ingredient portion of Medicaid drugs in a manner more
below AWP.                                                consistent with the findings of this report

If reimbursement had been based on the estimates of       HCFA should study any of the other factors, such as
this report, Medicaid could have saved $225 million       dispensing fees, which they believe could significantly
for 100 drugs in CY 1994.                                 impact pharmacy reimbursement


Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid
Prescription Drug Program of CA, D.C., DE, FL, MD, MO, MT, NE, NJ, NC, VA
(A-06-95-00062 through A-06-95-00072)
(This nationwide audit resulted in 11 separate, State-specific reports. )

Findings                                                  Recommendations
The estimates of the extent that AWP             The State Agencies should consider the results of their audit in
exceeded pharmacy purchase invoice prices        determining any future changes to pharmacy reimbursement.
for brand name drugs and generic drugs were:


State         Brand Name            Generic

CA            17.5%                 41.4%

DC            17.3%                 43.8%

DE            19.3%                  37%

FL            20.2%                 41.5%

MD            18.7%                 41.9%

MO            18.5%                 42.5%

MT            16.2%                 48.5%

NC            16.9%                 45.2%

NE            18.7%                 44.9%

NJ            19.8%                 42.5%

VA            17.2%                 45.1%




 Medicaid HIV/AIDS Drug Cost Containment               38                                             OEI-05-99-00611
Medicaid Drug Rebates: The Health Care Financing Administration Needs to Provide
Additional Guidance to Drug Manufacturers to Better Implement the Program
(A-06-91-00092)
Findings                                                   Recommendations
Manufacturers’ calculations of AMP are inconsistent.       HCFA should survey manufacturers to identify the
                                                           variations in determining AMP and develop a more
                                                           specific policy for manufacturers.

There are significant differences among                    Establish requirements which provide for unrestricted
manufacturers’ policies on the OIG’s right of access to    access by Federal oversight agencies to manufacturer’s
company records.                                           records pertaining the rebate program

There are significant differences among manufacturers      Establish requirements which direct drug
in the length of time records relating to drug rebates     manufacturers to retain rebate records for a period of 2
are retained.                                              years.




 Medicaid HIV/AIDS Drug Cost Containment                  39                                           OEI-05-99-00611
                                                                           APPENDIX G


                 Related Office of Inspector General Reports
Excessive Medicare Payments for Prescription Drugs (OEI-03-97-00290)

Medicare Reimbursement of Albuterol (OEI-03-00-00311)

Medicare Reimbursement of End Stage Renal Disease Drugs (OEI-03-00-00020)

Need to Establish Connection Between the Calculation of Medicaid Drug Rebates and

Reimbursement for Medicaid Drugs (A-06-97-00052)


Medicaid Pharmacy: Actual Acquisition Cost of Generic Prescription Drug Products (A-06-97-

00011)


Medicaid Managed Care and HIV/AIDS (OEI-05-97-00210)


Medicaid Pharmacy: Actual Acquisition Cost of Prescription Drug Products for Brand Name

Drugs (A-06-96-00030)


Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid Prescription

Drug Program of _______

California Department of Health Services (A-06-95-00062)

Montana Dept. Of Public Health and Human Services (A-06-95-00068)

Florida Agency for Health Care Administration (A-06-95-00065)

North Carolina Department of Human Resources (A-06-95-00071)

Delaware Department of Health and Social Services (A-06-95-00063)

Virginia Department of Medical Assistance (A-06-95-00072)

New Jersey Department of Human Services (A-06-95-00070)

Nebraska Department of Social Services (A-06-95-00069)

Missouri Department of Social Services (A-06-95-00067)

District of Columbia Department of Human Services (A-06-95-00064)

Maryland Department of Health and Mental Hygiene (A-06-95-00066)


Medicaid Drug Rebates: The Health Care Financing Administration Needs to Provide Additional

Guidance to Drug Manufacturers to Better Implement the Program (A-06-91-00092)


Medicaid Drug Rebates: Inaccurate Reporting of Medicaid Drug Data by Pharmacies (A-06-91-

00056)


Medicaid Drug Rebates: Improvements Needed in the Health Care Financing Administration’s

Procedures to implement the Medicaid Drug Rebate Program (A-06-91-00102) 


  Medicaid HIV/AIDS Drug Cost Containment    40                                  OEI-05-99-00611
                                                                                              APPENDIX H


                                               End Notes


1.	     Federal HIV/AIDS Spending: A Budget Chartbook. Fiscal Year 2000. The Henry J. Kaiser Family
        Foundation.

2.	     National Center for HIV, STD and TB Prevention, Division of HIV/AIDS Prevention, Centers for Disease
        Control and Prevention, “HIV/AIDS Among US Women: Minority and Young Women at Continuing
        Risk.”

3.	     Owens, J., Chief, Medicaid Program Integrity, State of Florida, “New Approaches to Combat Fraud and
        Abuse in the Medicaid Prescribed Drug Program.” Presented at Medicaid Drug Rebate Program
        Conference, Salt Lake City, September 2000.

4.	     42 USC 1396r-8(d) regulates and defines the states’ rights to restrict drugs or to impose preauthorization
        requirements.

5.      42 CFR 447.301

6.	     National Pharmaceutical Council, "Pharmaceutical Benefits Under State Medical Assistance Programs"
        1999, p. 4-57.

7.	     Section 1927(c)(1)(C) of the Social Security Act defines “best price” as the lowest price available from the
        manufacturer to any wholesaler, retailer, provider, health maintenance organization, nonprofit entity, or
        governmental entity within the United States, excluding: (1) any prices charged to the Indian Health
        Service, the Department of Veteran Affairs, the Department of Defense, the Public Health Service (PHS),
        and PHS-covered entities; (2) any prices charged under the Federal Supply Schedule; (3) any prices used
        under state pharmaceutical assistance program prices; and (4) any depot and single award contract prices.

8.      Centers for Disease Control and Prevention’s HIV/AIDS Surveillance Report


9.	     Federal Ceiling prices limit the pharmaceutical prices paid by the Department of Veterans’ Affairs,
        Department of Defense, Public Health Service and the Coast Guard.


10      The full complexity of these formulas are not represented. Only the basic elements have been included in
        order to more vividly portray the fundamental differences between the various formulas. For instance, the
        Medicaid rebate is actually the greater of 15.1 percent of AMP or AMP minus the manufacturer’s “Best
        Price”.

11.     Veteran’s Health Care Act of 1992, Title VI, Sec. 603(h)(5)

12.     [SSA 1927] 42 USC Sec. 1396r-8(k)K1)


13.     State Medicaid Manual, Part 6, Section 6305.1

 Medicaid HIV/AIDS Drug Cost Containment                41                                            OEI-05-99-00611
14.	    Massachusetts Medicaid agency pays a dispensing fee of $2.50 but beneficiaries pay a $.50 copayment.
        Thus, the pharmacy receives $3.00 per prescription.

15.	    The 25 percent is based upon a total expenditure calculation that we made using data provided by each
        State for expenditures on each drug in our sample. Our survey also asked States to estimate their total
        spending on antiretrovirals, and this survey question yielded a lower total expenditure estimate. The $51
        million savings represents 28 precent of this lower estimated expenditure total.

16.	    National Center for HIV, STD and TB Prevention, Division of HIV/AIDS Prevention, Centers for Disease
        Control and Prevention, “HIV/AIDS Among US Women: Minority and Young Women at Continuing
        Risk.”

17.     Indianapolis Star. “Director Proposes Cuts in Medicaid” by Kevin Corcoran. January 24, 2001.


18.	    This is an estimate based on people with HIV/AIDS who are in regular care. Most of these people rely on
        public sector insurance programs -- estimates range from 68 percent to 83 percent. Bozzette, S.A., et al.,
        “The Care of HIV-infected Adults in the United States”, New England Journal of Medicine, Vol. 339, No.
        26, 1998.

19.	    “Need to Establish Connection Between the Calculation of Medicaid Drug Rebates and Reimbursement for
        Medicaid Drugs” (A-06-97-00052), Attachment 2.

20.     42 CFR 447.333

21.     42 USC 1396r-8(b)(3)(D)

22.     60 FR 48442

23.	    The full complexity of the formula is not represented here, but it is explained fully in the Background. The
        rebate formula also accounts for “Best Price” and an inflation indexing methodology.

24.     42 USC 1396r-8(b)(3)(D)

25.     60 FR 48442

26.	    “Need to Establish Connection Between the Calculation of Medicaid Drug Rebates and Reimbursement for
        Medicaid Drugs” (A-06-97-00052), Attachment 2.




 Medicaid HIV/AIDS Drug Cost Containment               42                                            OEI-05-99-00611
